Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




        TECHNICAL ASSISTANCE
                FOR
         QUALITY CHILD CARE:


    REGIONAL OFFICE PERSPECTIVES




                   JUNE GIBBS BROWN
                    Inspector General

                      OCTOBER 1999
                      OEI-07-97-00422
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG) as mandated by Public Law 95-452, as
amended by Public Law 100-504, is to protect the integrity of the Department of Health and
Human Services programs as well as the health and welfare of beneficiaries served by them. This
statutory mission is carried out through a nationwide program of audits, investigations,
inspections, sanctions, and fraud alerts. The Inspector General informs the Secretary of program
and management problems and recommends legislative, regulatory, and operational approaches to
correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Region VII, Kansas City office prepared this report under the direction of James H. Wolf,
Regional Inspector General. Principal OEI staff included:

REGION                                                  HEADQUARTERS

Deborah Walden, Project Leader                          Linda Hall, Program Specialist

Tricia Fields, Program Analyst                          Ann O’Connor, Program Specialist

Ray Balandron, Program Analyst                          Barbara Tedesco, Technical Support Staff

Perry Seaton, Program Analyst





     To obtain copies of this report, please call the Kansas City Regional Office at (816) 426-3697.
          Reports are also available on the World Wide Web at our home page address:

                                 http://www.dhhs.gov/progorg/oei
                    EXECUTIVE SUMMARY

PURPOSE

To determine the perceptions of Administration for Children and Families (ACF) regional office
staff regarding technical assistance provided under contracts with ACF Child Care Bureau.

BACKGROUND

The Personal Responsibility and Work Opportunity Reconciliation Act of 1996 repealed a number
of child care programs and created a single, integrated Child Care and Development Block Grant
for low-income families. Program goals are to ensure accessibility and affordability of quality child
care for working families by promoting parental choice, encouraging States to provide consumer
education to parents, and helping States implement health, safety, licensing, and registration
standards. The program is funded for $20.9 billion for Fiscal Years 1996-2002.

The ACF contracts with outside entities to provide technical assistance funded through this Grant.
This technical assistance includes the coordination and support of regional and national
conferences, national workgroups, leadership forums, activities to improve health and safety, audio
conference calls, and creation of the National Child Care Information Center. In 1997, ACF
augmented its technical assistance capabilities by creating the Child Care Technical Assistance
Network, which went into effect in February 1998. The expansion of technical assistance is
reflected in funding which increased from $2.3 million in FY’ 95 to over $7 million in FY’ 98.

The ACF Child Care Bureau and regional offices play important roles in the provision of technical
assistance to State, Territory and Tribal grantees. Based on historical relationships, the regional
offices have continued contacts with the States covering the full range of operations. They are also
in a pivotal position to observe technical assistance and have knowledge of regional needs which
serve as a bridge between national and local policy. Therefore, we sought to obtain the insights of
staff responsible for the Child Care and Development Block Grant in each of the regional offices.

FINDINGS

Regional offices want more information to better utilize the Child Care Technical Assistance
Network

Most regional office child care staff say the Child Care Technical Assistance Network addresses
important child care issues and see the Network as a plus for child care. However, they want more
information regarding the Child Care Bureau’s expectations of the Network projects and
contractors, and how to better utilize Network resources.

Regional meetings, targeted technical assistance, and national conferences are the most
beneficial technical assistance formats to Regional Office staff

When asked about the technical assistance they find most beneficial, staff in six regions say they
benefit from regional meetings, seven identify national conferences, and four regions say targeted
technical assistance. They believe regional meetings and national conferences provide valuable
opportunities for networking and sharing information, and that targeted technical assistance meets
individual State and regional needs.



                                                  i
Regional office staff have varying opinions of Network project operations
Regional staff provided comments regarding the seven independent Network projects and the
various resources associated with each of them. The following chart summarizes regional office
perceptions of the value of technical assistance based upon their experience with the projects and
knowledge of them.

                    Network Project                        Regional Office Perceived Value
     National Child Care Information and              Valuable asset, improved information reported,
     Technical Assistance Center                      being used more and more

     Child Care Technical Assistance
     Logistics Support Project                        Much improved - some refinement needed

                                                      Regional involvement delayed and varies from
     Healthy Child Care America Campaign              limited to extensive use


     Tribal Child Care Technical Assistance Center    Limited regional contact with contractor


     Child Care Partnerships Project                  Little regional involvement and knowledge

     Child Care Inclusion Project for
     Children with Disabilities                       Limited regional involvement

     Child Care Information Systems
     Technical Assistance Project                     Well known and very valuable

    More detailed information on each project can be found in the body of the report.

Regional office child care staff consider reimbursement rates, welfare reform, and gaps in
service as the most critical issues deserving technical assistance

When asked to identify critical issues that technical assistance should address, child care staff in the
regions identified reimbursement rates, welfare reform, and gaps in service (i.e., infant/toddler or
school-age child care). Staff believe these issues are of both regional and national concern.

RECOMMENDATIONS

Regional office staff value the resources available through the Child Care Technical Assistance
Network. However, based on our analysis of their responses and comments, we recommend the
ACF focus on the following approaches to enhance their program.

       --       Provide regional offices with additional information about technical assistance
                involving Network project expectations, contractor responsibilities, and ongoing
                work.

       --       Maintain and improve effective technical assistance formats.

       --       Focus technical assistance on issues suggested by regional office staff as critical.




                                                     ii
Agency Comments

The ACF concurs with our recommendations and describes various improvements in their technical
assistance initiatives. Their comments are included in Appendix B.




                                              iii

                                       TABLE OF CONTENTS


                                                                                                                          PAGE

EXECUTIVE SUMMARY


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS


More Information Wanted to Better Utilize the Child Care Technical Assistance Network . . . . . . 5


Beneficial Technical Assistance Formats . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


Opinions of Network Projects . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


   •   National Child Care Information and Technical Assistance Center
   •   Child Care Technical Assistance Logistics Support Project
   •   Healthy Child Care America Campaign
   •   Tribal Child Care Technical Assistance Center
   •   Child Care Partnership Project
   •   Child Care Inclusion Project for Children with Disabilities
   •   Child Care Information Systems Technical Assistance Project 


Critical Issues and Technical Assistance Needs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11



APPENDICES

A. The Child Care Technical Assistance Network . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-1


B. Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . B-1

                             INTRODUCTION


PURPOSE

To determine the perceptions of Administration for Children and Families (ACF) regional office
staff regarding technical assistance provided under contracts with the ACF Child Care Bureau.

BACKGROUND

Legislation

The Personal Responsibility and Work Opportunity Reconciliation Act of 1996 repealed the 

Title IV-A child care programs (Aid to Families with Dependent Children/Job Opportunities and

Basic Skills Child Care, Transitional Child Care, and At-Risk Care) and created a single, integrated

Child Care and Development Block Grant (CCDBG), also called the Child Care Development

Fund, for low-income families. Legislation requires the ACF to provide States, Territories, and

Tribes with technical assistance focused on the achievement of Child Care and Development Block

Grant program goals. Program goals are to ensure accessibility and affordability of quality child

care for working families by promoting parental choice, encouraging States to provide consumer

education to parents, and helping States implement health, safety, licensing, and registration

standards. 


Funding

Consolidation of all child care programs into the CCDBG dramatically increased the technical
assistance funds available, from $2.3 million in FY’95 and $2.6 million in FY’96 to $6.6 million in
FY’97 and over $7 million in FY’98. The entire CCDBG program is funded for $20.9 billion for
Fiscal Years 1996-2002, with $3.2 billion available in FY’99.

Technical Assistance Contracts

The ACF initially awarded a contract for technical assistance to J&E Associates for Fiscal Years
1993 and 1994. The technical assistance provided through this contract focused on certificate
payment programs mandated by newly enacted legislation. This legislation required that States
have a system capable of operating a certificate payment program in place by October 1, 1992 to
allow parental choice in the selection of child care providers. Under this contract, States and tribes
were surveyed regarding their certificate program capabilities and technical assistance needs. In
addition, they conducted regional meetings and national child care conferences.

Upon expiration of the contract with J&E Associates, ACF awarded a new 3-year contract to
Trans-Management Systems Corporation (T-MSC) in cooperation with Collins Management
Consulting. With reauthorization of the Child Care and Development Block Grant in 1996, they



                                          )))))))))))
                                               1
extended this contract for an additional year. Technical assistance provided under contracts with
these companies included convening, supporting, and/or administering

   • State, territorial, and tribal work groups,
   • 	annual conferences, such as National State Child Care Administrators Conferences,
      National American Indian and Alaska Native Child Care Conferences, and national
      leadership forums focused on specific issues related to child care,
   • regional child care conferences, and
   • the National Child Care Information Center.

In addition to the J&E Associates and the T-MSC contracts, in 1994 the Child Care Bureau entered
into an Intra-Agency Agreement with the Maternal and Child Health Bureau focused on improving
the health and safety of child care. As a result, the two Bureaus collaboratively launched the
Healthy Child Care America Campaign in 1995, a nationwide initiative to promote health and safety
in child care by building linkages between child care and health at the State and community levels.
The scope of Campaign activities are targeted towards assisting State, Territory, and Tribal child
care programs in developing and expanding linkages. These activities are implemented through a
partnership with the American Academy of Pediatrics. Activities include: information
dissemination and referral; staffing a toll free hotline to respond to inquiries; tracking State
activities; publication of the Health Child Care America newsletter; and promoting involvement of
health professionals in child care.

Contractor responsibilities also encompass a multitude of logistical support activities associated
with convening and coordinating workgroups and conferences, such as securing adequate meeting
facilities, hotel accommodations and presenters, compiling invitation and participant lists, designing
agendas, and providing advance notice of upcoming events. They also provide travel arrangements
and reimbursement for conference presenters, and in some instances (i.e., National State Child Care
Administrators’ Conference) for some conference attendees.

The National Child Care Information Center complements, enhances, and promotes child care
linkages and serves as a mechanism for supporting quality, comprehensive services for children and
families. To carry out their work, it provides question and answer services, an Internet and digital
library, collection and dissemination of information resources, and linkages to other websites and
information sources. Questions and requests for information received by the Center come from a
variety of sources via telephone, fax, e-mail, and contacts at meetings and conferences. The Center
also publishes a website which is located at http://nccic.org. This website serves as a starting point
for child care information about State and tribal program activities, funding resources,
organizations, child care research, welfare reform, health and safety, promising practices, leadership
forums, conference calendars, and other child care resources. The Information Center activities
include

   • 	dissemination of child care information in response to requests from States,
      Territories and Tribes, policymakers, parents, programs, organizations,
      child care providers, and the public.



                                          )))))))))))
                                               2
   • maintenance of the website.

   • 	serving as the adjunct for the Educational Resources Information Center
      clearinghouse for child care via the National Child Care Information Center website.

   • publication of the Child Care Bulletin newsletter.

In 1997, the ACF redesigned their technical assistance approach to address emerging child care
issues and technical assistance needs. Through this redesign the ACF created the Child Care
Technical Assistance Network, which went into effect in February 1998. This Network comprises
seven independent projects, each awarded to an individual contractor. The projects and contract
awardees are the

   • 	National Child Care Information and Technical Assistance Center
       (Collins Management Consulting, Inc.),

   • 	Child Care Technical Assistance Logistics Support Project
       (Trans-Management Systems Corporation),

   • 	Healthy Child Care America Campaign
       (Inter-agency agreement between the ACF, Child Care Bureau, and the Maternal and Child
       Health Bureau, implemented through the American Academy of Pediatrics),

   • 	Tribal Child Care Technical Assistance Center
        (Native American Management Services, Inc.),

   • Child Care Partnerships Project (The Finance Project),

   • 	Child Care Inclusion Project for Children with Disabilities
       (University of Connecticut Health Center ), and

   • 	Child Care Information Systems Technical Assistance Project
       (SRA International, Inc.).

These projects provide for continuation of the National Child Care Information Center, website,
and Child Care Bulletin; the Healthy Child Care America Campaign; and logistical support services.
These and the new technical assistance projects play a major role in continuing to address ongoing
and emerging child care issues and technical assistance needs at both the national and State levels
through national and regional conferences, forums, and audio conference calls. Expanded
information on the Network is provided in Appendix A.

SCOPE AND METHODOLOGY

In addition to the Child Care Bureau, the ACF regional offices are also routinely called upon to
provide technical assistance to State, Territory, and Tribal grantees. They have traditionally served


                                          )))))))))))
                                               3
in a bridging role to facilitate the development and application of national policy and operations at

the State and local levels. In this function, the regions are well positioned organizationally and by

experience to observe technical assistance from the perspective of receiving and providing it. 

Therefore, we sought to obtain insights of ACF regional staff assigned Child Care and

Development Block Grant responsibilities regarding technical assistance provided under contracts

with the agency.


We conducted telephone interviews with ACF staff in each of the 10 regional offices who were 

identified by the Child Care Bureau as “child care contacts” because of their CCDBG

responsibilities. Also, other regional staff identified by those contacts as having a strong child care

background and knowledge of the Child Care Technical Assistance Network were included in those

interviews. While some of our questions specifically addressed technical assistance provided prior

to February 1998, most questions addressed technical assistance provided since February 1998

through the seven Child Care Technical Assistance independent projects. We conducted the

interviews between February 23 and March 25, 1999, one year after implementation of the new

Network.


This is the third of three inspections to focus on various entities’ perceptions of Technical

assistance provided by the ACF, Child Care Bureau. In two previous reports, 

“Technical Assistance for Quality Child Care: State Administrators’ Perspectives” and 

“Technical Assistance for Quality Child Care: Child Care Community Perspectives,” we address the

perceptions of State child care administrators, child care community leaders, and individuals

associated with improving and ensuring the quality of child care. 


We conducted our review in accordance with the Quality Standards for Inspections issued by the

President’s Council on Integrity and Efficiency.





                                          )))))))))))
                                               4
                                     FINDINGS

Regional offices want more information to better utilize the Child Care Technical Assistance
Network

Regional office staff say they have received little guidance regarding how to utilize the new
Network or how regional offices fit into the overall technical assistance structure and, as such, have
not been in a good position to respond to States’ requests to them. They emphasize the fact that
they received only basic information about the new Network and the contractors’ responsibilities.
Likewise, they would appreciate more information regarding what the contractors have to offer,
how best to utilize it, and ongoing feedback or periodic updates on the status of the regional and
national Network activities.

Regional office child care staff indicate they first learned about the new Child Care Technical
Assistance Network through a conference call with the Child Care Bureau. They also indicate they
were not previously given an opportunity to provide input into the development of the Network.
Staff in seven regions see the Network as a positive change for technical assistance. Staff in nine
regions also say the Network does address important child care needs and concerns, but one of the
nine regions questions if technical assistance will become too fragmented as a result of it.

Regional office staff initially received a two-page “Fact Sheet” about the Network from the Child
Care Bureau. This “Fact Sheet” contains basic information about each project, contractor names,
and phone numbers. As such, regional office staff comment that this information contains no
specific contract details or information about contractor responsibilities, is very generic, and
therefore insufficient for regional office purposes. Similar information is available to the general
public through the National Child Care Information Center website and is distributed in conference
participant packages. Staff in one region indicates they have requested more specific information
regarding Network contractor responsibilities from the Child Care Bureau, but at the time of our
review, none had been provided.

Staff in seven regional offices indicate they receive some feedback regarding the status of the
Network projects. However, one of these regions comments that the feedback is inconsistent and
unsatisfactory, and another suggests they be provided with regular updates regarding Network
activities, even if some contractors have nothing new to report.

Regional meetings, targeted technical assistance, and national conferences are the most
beneficial technical assistance formats to Regional Office staff

Regional Meetings and Targeted Technical Assistance

When asked about the technical assistance formats they find most beneficial, staff in six regions say
they prefer regional meetings. Those that prefer regional meetings comment that these events:
provide opportunities for regional networking and sharing information; allow them to focus
technical assistance on regional concerns and issues more narrowly; allow discussion of issues in
more detail than do larger events; and are well received by regional grantees and participants. Staff

                                          )))))))))))
                                               5
in four of those six regions prefer large regional meetings and conferences over small ones because
they impact more people. Staff also comment that targeted technical assistance is most beneficial
because it is designed to meet the individual needs of both States and regions.

National Conferences

Child care staff in seven regions are also positive about the National State Child Care
Administrators Conferences held annually in Washington, D.C. Staff comment these events are
well-attended by State child care administrators and their staff, and are “always a plus.” In contrast
to regional meetings, national conferences bring State child care administrators from across the
nation together in a networking environment. However, regional staff express concern that no time
is set-aside during these events for the administrators to meet separately from other participants,
hindering their opportunities to openly discuss significant child care issues. They also are
concerned that regional office staff are often unable to attend national conferences due to
insufficient regional travel funds, and that their role in administering the Child Care Development
Block Grants is not discussed at these events.

In addition, regional staff mention strengths and weaknesses of the State Issues Workgroup, audio
conference calls, and Regional Coordinating Councils.

State Issues Workgroup

Another format for providing technical assistance is the State Issues Workgroup comprised of one
State child care administrator from each of the 10 regions. This group is funded with CCDBG
technical assistance funds and meets quarterly to discuss child care issues and concerns.
Child care staff in seven regions indicate they receive feedback from State administrators who
participate in these workgroup meetings through occasional conversations, and at regional meetings
of State child care administrators, or via conference calls with the CCB. However, they note that
no formal mechanism is in place for participating administrators to request input from other State
administrators or regional office staff prior to workgroup meetings, or to provide feedback from
those meetings. Three regions also express concern regarding the role and responsibilities of the
State administrator as a participant in the workgroup, and question whether participating
administrators serve in a regional capacity representing all States in their region, or if they represent
only their own individual State.

Audio Conference Calls

Regional offices have seen a reduction in the frequency of audio conference calls. Their
suggestions for improvement include holding monthly audio or video conference calls between the
Child Care Bureau and regional offices, more advance notice of upcoming calls, and the
coordination of those calls with other ACF components to avoid scheduling calls at the same time
since many regional child care specialists work with other programs as well. They also suggest that
State child care administrators be given opportunities to provide input into conference call agendas.




                                           )))))))))))
                                                6
Regional Child Care Coordinating Councils

In early 1999, the Child Care Bureau made $5,000 in technical assistance funds available to each
region for the establishment of regional child care coordinating councils. Staff in eight regions
indicate they are working to incorporate their new child care council with an existing Head Start
council. They believe this will avoid duplication of effort. Most regions plan to use all or part of
the funds to pay travel expenses to ensure State child care administrator participation in council
meetings. One of the remaining two regions indicates they discussed incorporating child care into
an existing Head Start council, but decided to use the money to fund what they called “regional
cluster meetings.” Staff in the other regional office comment they have made no decisions
regarding the establishment of a regional child care coordinating council and are unsure of the Child
Care Bureau’s expectations. This is echoed by staff in another region who say the Child Care
Bureau has established no parameters for regional coordinating councils and that they have
received nothing in writing regarding the Bureau’s expectations.

Regional office staff have varying opinions of Network project operations

Regional office staff provided us with their comments regarding the seven independent Network
projects and the various technical assistance resources associated with each of them. To provide
information on regional application of contract activities and assistance, and areas where they
identify project weaknesses, we list each project individually and identify particular findings related
to our discussions with regional staff.

The National Child Care Information and Technical Assistance Center

Regional Office staff are using Information Center services more frequently and report
improvements in the information available. Staff in nine regions indicate they began utilizing the
services of the National Child Care Information Center staff before February 1998 to request
information regarding State practices and policies, national trends, successful child care program
models, and conference resources. Since then, they now report more frequent use of the Center’s
resources. While they continue to contact the Center to search for information, more resources are
now available, and the information is more current and focused.

The ACF regional office staffs’ use of the Information Center’s website has also increased. Prior to
February 1998, ACF regional office staff seldom accessed the Center’s website. Staff in two
regional offices report the frequency with which they visited the Center’s website prior to February
1998 as weekly, one reports monthly access, one reports quarterly access, five indicate they
“seldom” access the website, and one reports never accessing the website prior to that time.
However, all staff are now accessing the website for information about what other regions and
States are doing, to locate speakers, access reports, and as a starting point when searching for links
to other child care information sources and groups. Staff cite positive changes in the website, and
note that the quality and quantity of the information has improved.

All regional office staff report receiving the Child Care Bulletin, a newsletter published by the
National Child Care Information Center before February 1998, and continue to receive it today.
Staff in nine regions report they disseminate copies of the Bulletin to other ACF regional office

                                          )))))))))))
                                               7
components, State administrators, Child Care Resource and Referral agencies, other Federal
agencies (i.e., Women’s Bureau), and conference participants. They also distribute copies to
various other individuals in response to specific questions and concerns addressed by information
contained in Bulletin articles.

Staff in seven regions noted changes in the Bulletin since February 1998. Likewise, staff in five of
those seven indicate the changes are beneficial, and some comment it now has a more professional
look, and is now published quarterly in lieu of bi-monthly. While two regions prefer bi-monthly
publication, three state a preference for quarterly publication, and two say either frequency is fine.
Staff in one region also comment that quarterly publication lends itself to higher quality articles.
Staff in another region note “It’s a matter of content, not how often the Bulletin is published,” and
suggest the Child Care Bureau revisit topics previously featured in the Bulletin, and publish new
information now available on those subjects.

In June of 1998, the Child Care Bureau established 10 State Technical Assistance Specialist
positions, which are administered by the National Child Care Information and Technical Assistance
Center. Based on information provided by the Information Center, the responsibilities of the
technical assistance specialists include coordinating with ACF regional offices to determine the
child care technical assistance needs of States, and coordinating and/or providing States with
technical support. They are also responsible for: developing and facilitating linkages among State
programs; collecting information and resources for the Information Center; providing regional
office staff with administrative support regarding tribal construction/renovation; attending Child
Care Technical Assistance Network meetings; and participating in a variety of Information Center
activities. One State technical assistance specialist is assigned to each of the 10 regions.

All regional child care staff indicate ongoing contact with their regional technical assistance
specialist. In most cases, initial contact was established shortly after the selection of the specialists
for the purpose of getting acquainted, discussing State issues and technical assistance needs,
establishing coordination, and arranging for visits with State child care administrators. Most
regional staff find meetings and conversations with the specialists helpful and indicate they are
receiving feedback from them regarding their interaction with State grantees. Regional office staff
are also including the specialists in regional meetings with State administrators.

While most regional office staffs’ comments indicate the State technical assistance specialists are a
valuable contribution to the Child Care Technical Assistance Network, they express concern
regarding the scope of their responsibilities. One region questions whether or not the specialists
should be providing State grantees with policy clarification. Another region has requested copies
of monthly activity reports submitted to the Child Care Bureau by their regional specialist, but has
not received them. They also comment that the Child Care Bureau is working more directly with
State grantees through the specialists, and that regional offices are sometimes left out of the loop.

Child Care Technical Assistance Logistics Support Project

Overall, regional office staff are satisfied with logistical support services provided in connection
with technical assistance events (i.e., participant lists, meeting facilities, hotel accommodations,
grantee travel arrangements and reimbursement, etc.). They were less satisfied with advance notice

                                           )))))))))))
                                                8
provided to regional offices and participants regarding upcoming events. Even so, all regional
office staff note improvements in logistical services since February, 1998. They now receive more
advance notice of upcoming events, the quality of brochures and printed materials has improved,
and brochures and printed materials have been updated.

Healthy Child Care America Campaign

Staff in four regions comment that it has taken a long time for the regions to get involved in the

Healthy Child Care America Campaign. They note that despite strong efforts by the Child Care

Bureau to promote the Campaign, those efforts did not translate to the regional offices. 


Staff in 6 of the 10 regions are taking advantage of the technical assistance available through the

American Academy of Pediatrics. Four of these offices note that specific information made

available through the Campaign is assisting them in providing technical assistance regarding health

and safety issues. They believe that funds available through this contract, the support it 

receives from the Maternal and Child Health Bureau, and the information and materials available

are very helpful. They note that States are responding positively to this Campaign. 


However, while three regions find the Healthy Child Care America Campaign helpful, they believe

some confusion still exists regarding how to work with other agencies to carry out its mission. As

such, most staff rely on State administrators to contact the project contractor. Staff in other

regional offices say they “don’t have a lot of direct interface with the contractor,” that they “get

the newsletters, but have no contact with the contractor,” and that “the campaign’s link with the

child care side has weakened.” 


Tribal Child Care Technical Assistance Center

At the time of our interviews, regional office staff report only limited contacts with the Tribal Child
Care Technical Assistance Center (TriTAC). Staff in eight regions have contacted TriTAC to
obtain assistance in planning regional meetings, gather conference materials, and acquire the names
of potential regional conference speakers. Child care staff in two regions offered suggestions for
strengthening the technical assistance provided by this project. Specifically, one region suggests
TriTAC develop a “How To” manual for tribal child care administrators due to the high turnover
rate in those positions. Another suggests TriTAC focus on data collection, and cautions that they
not overlook the provision of technical assistance to tribes with smaller grants.

Public-Private Partnership Project

Of the seven independent projects that make up the technical assistance Network, regional office
staff are least familiar with the Public-Private Partnership Project. As such, they believe little has
been done to promote the project. Accordingly, staff in nine regions say they need more
information from the Child Care Bureau on public-private partnerships, examples of successful
partnerships, and information about what is happening within their region. They also note that
most States already have public-private networks of their own. However, regional office



                                           )))))))))))
                                                9
perceptions of the impact this project has had are mixed. One region cites impact, three regions
cite no impact, and six are unsure.

Child Care Inclusion Project for Children with Disabilities

All regional office staff encourage States to submit applications for the “Map to Inclusive Child
Care” project, designed to expand child care delivery systems for children with disabilities.
However, in spite of these efforts, not all States will submit project applications this year. Staff
note that some States (particularly rural States) feel the work involved preparing the application is
not worth the effort since only one State in each region is selected each year. They also question
why some technical assistance in this area is not being provided to all States. While all regions are
participating in the application review process for the “Map,” they have little involvement.

Child Care Information Systems Technical Assistance Project

Staff in the 10 ACF regional offices find the Child Care Information Systems (CCIS) Technical
Assistance Project services useful. They note that the project contractor has provided information
regarding State practices and successful models, and has conducted workshops at the National
State Child Care Administrators’ Conference and some regional conferences. They report the
project also provides States with immediate feedback on reporting problems. However, one region
comments that the Child Care Bureau is sending some reporting information directly to State
grantees, leaving the regional offices out of the loop.

Regional office child care staff consider reimbursement rates, welfare reform, and gaps in
services critical child care issues

When asked to identify critical issues that technical assistance should address, child care staff in
four regions identified reimbursement rates, three welfare reform, and three gaps in service
(i.e., infant/toddler or school-age child care). Staff believe these issues are of both regional and
national concern. Other critical issues identified in at least two regions are: unregulated
(i.e., in-home), pre-kindergarten, non-traditional, and wrap-around child care; blended funding
streams; child care for the working poor; child care provider training and career development; and
tribal child care facility construction. Staff note all of these issues are of both regional and national
concern.

Most child care staff interviewed would prefer a more regionally driven agenda which addresses
critical issues. They also express concern with the lack of opportunity to provide input into the
selection of issues addressed in technical assistance events. They explain that while good
information and materials are being provided, and they receive positive feedback from participants,
some events are driven by a nationally mandated agenda which does not necessarily address
regional technical assistance needs.




                                           )))))))))))
                                                10
                      RECOMMENDATIONS

Information obtained from our surveys of regional office staff shows that ACF’s child care
technical assistance is a valuable asset in promoting quality child care and that regional staff are
aware of the projects that incorporate various aspects of technical assistance. However, regional
staff note a number of deficiencies, particularly pertaining to insufficient information about the
Network and regional offices’ involvement and participation. Our overall impression is that, while
regional office staff are familiar with the Child Care Technical Assistance Network and well
positioned to facilitate technical assistance with the State components, more information will enable
them to be more effective. As such, we recommend ACF adopt the following approaches to
further enhance their program.

Provide regional offices with additional information about technical assistance

The ACF should provide regional office child care staff with detailed information regarding

   • 	Child Care Bureau expectations for Network projects, regional coordinating councils,
      and State Issues Workgroup participants.
   • contractor responsibilities.
   • the status of Network projects.
   • how to best utilize the Network.
   • successful public-private partnerships.
   • child care reporting instructions.
   • State Issues Workgroup meetings.
   • upcoming events and conference calls.

 This information should be provided on an ongoing basis and not just a one-time activity.

Maintain and Improve Effective Technical Assistance Formats

The ACF should, as possible, seek to provide technical assistance in settings that regional office
staff have identified as most conducive to sharing information. As such, we recommend ACF
continue to

   • 	hold the annual National State Child Care Administrators’ Conference and allocate
      time for State Administrators to meet separately from other participants during those
      conferences.

   • provide technical assistance through regional meetings and conferences.

   • hold audio conference calls, but coordinate scheduling with other ACF components.

   • provide targeted technical assistance to State grantees.




                                          )))))))))))
                                               11
Focus technical assistance on issues suggested by regional office staff

To meet the technical assistance needs identified by regional office child care staff, we recommend
that ACF address the following issues in future technical assistance events:

   • Provider reimbursement rates;
   • Welfare reform; and
   • Gaps in service.

These needs complement those that were identified based upon our surveys with State
Administrators and community organization contacts.

AGENCY COMMENTS

The ACF concurs with our recommendations and describes various improvements in their technical
assistance initiatives. Their comments are included in Appendix B.




                                         )))))))))))
                                              12
                                  APPENDIX A



                              Child Care Bureau

                    Child Care Technical Assistance Network

Seven projects comprise the Child Care Technical Assistance Network (CCTAN) which the Child
Care bureau has designed to address the needs of States, Territories, and Tribes administering the
Child Care and Development Fund. The seven projects include:

National Child Care Information Center (NCCIC)

The National Child Care Information Center (NCCIC), in collaboration with the ERIC
Clearinghouse on Early child and Elementary Education, is the primary clearinghouse to support
the development of expertise and dissemination of child care information. An extensive database of
child care information is maintained and resources are disseminated through information and
referral services, an Internet website, bimonthly publication of the Child Care Bulletin, bimonthly
mailings, resource rooms at conferences, and presentations at meetings and conferences. A
network of State Technical Assistance specialists, working with the ACF regional offices, provides
on-site consultative support to State grantees. NCCIC convenes a workgroup of national
organizations to share information on current activities, priorities, and trends. The Information
Center also supports and helps track CCTAN activities. This contract was awarded to Collins
Management Consulting, Inc. The Project Director is Ann Goldstein (800-616-2242 or
703-938-6031, e-mail: agoldste@nccic.org). The World Wide Web address for the National Child
Care Information Center is: http://nccic.org.

Child Care Technical Assistance Logistics Support Project

The Logistical Support Project coordinates and supports national and regional child care events
including national conferences for State, Territorial, and Tribal administrators. Other activities
include national leadership forums on critical child care issues such as Intergenerational Child Care
and Child Care for Infants and Toddlers; quarterly State Issues Workgroup Meetings; and monthly
audio conference calls on critical child care issues. Each region will hold conferences focusing on
areas of national and regional significance, child care and housing, infant/toddler issues,
Head Start/child care collaboration, and public-private partnerships. This contract is managed by
Trans-Management Systems Corporation. The Project Director is Vincent Gooden
(202-639-4465, e-mail: goodenv@aol.com).

Healthy Child Care America

The Healthy Child Care America campaign is a collaborative effort of health care professionals,
child care providers, and families working in partnership to improve the health and well-being of
children in child care settings. Program goals of the campaign are to implement a national
campaign to assist States, Tribes, and communities to develop and strengthen linkages between

                                          )))))))))))
                                              A-1
child care providers, health professionals, and families, and to improve the health and safety of

children in child care settings. Also, program activities and services include: provision of

information; local, State, and national contacts and resources; educational publications and

presentations (including a 46-page Blueprint for Action booklet and 10 Steps Communities Can

Take to Promote Safe and Healthy Child Care); pediatric representation at meetings/conferences;

descriptions of child care initiatives; funding and assistance for regional child care health and safety

initiatives; a child passenger safety training program; and a child care contact network.


The Healthy Child Care America campaign is sponsored by the U.S. Department of Health and

Human Services, Child Care Bureau and Maternal and Child Health Bureau, and is coordinated in

partnership with the American Academy of Pediatrics. The Program Manager is 

Sheryl Nelson. For more information, please call 888-227-5409 or send an e-mail message to

childcare@aap.org.


Tribal Child Care Technical Assistance Center (TriTAC)

The Tribal Child Care Technical Assistance Center will provide targeted technical assistance to
over 500 Tribes supported by the Child Care and Development Fund. Technical assistance under
this contract supports Indian Tribes and tribal organizations in their efforts to increase the
availability and quality of child care, develop more coordinated delivery systems, foster program
linkages with State and local programs, and improve child care opportunities for families,
providers, and tribal communities. Tribal grantees will assist in their child care capacity building
efforts through the following activities: a toll-free information and referral line; maintenance of a
database with information on tribal child care programs including promising practices and available
resources; development of software packages for data reporting and program management; a
TriTAC home page; a semi-annual newsletter; an annual national tribal child care conference;
cluster and on-site technical assistance; and coordination of training activities with the regional
offices and other contractors. This contract is managed by Native American Management Services,
Inc. The Project Director is Linda Kills Crow (918-287-2692, e-mail: kills@fullnet.net). For more
information contact TriTAC at (800-388-7670 or e-mail: tritac2@aol.com).

Public-Private Partnership

Public-private partnerships have become an important vehicle for drawing together the resources
and know-how needed to expand the supply and improve the quality of care for America’s children.
Many States and communities have already established public-private partnerships to improve the
quality, supply, and access to care for working families. The Child Care Partnership Project was
established to promote and nurture innovative practices and partnerships. This project will provide
information and technical assistance to State child care administrators as they work with businesses,
philanthropic organizations, and other groups to build and sustain partnerships.


Activities for the Child Care Partnership Project include: identifying and tracking existing practices
for promoting public-private partnerships at both the State and community levels; developing a
series of written technical assistance materials to guide the formation and implementation of
successful public-private partnerships; conducting a national conference on public-private

                                           )))))))))))
                                               A-2
partnerships for State administrators; and providing periodic updates to State child care grantees
about information collected and produced under this contract.

The work of the Child Care Partnership Project is carried out by The Finance Project, in
collaboration with the Families and Work Institute and the National Governor’s Association. For
additional information on the Child Care Partnership Project, contact The Finance Project. The
Project Manager is Sharon Deich (202-628-4200, e-mail: sdeich@financeproject.org). World
Wide Web address for the Child Care Partnership Project is: http://nccic.org/ccpartnerships.

Child Care Inclusion Project for Children with Disabilities

The Map to Inclusive Child Care Project offers an important opportunity to ensure that children
with disabilities, ages birth through 12, will have access to child care alongside their typically
developing peers. Fueling the project is the premise that efforts to support child care providers in
accommodating the individual needs of youngsters with disabilities can go hand-in-hand with
improvements in the quality of care for all children.

In the first year of the Map to Inclusive Child Care Project, 10 States have been selected to receive
technical assistance to address child care delivery for children with disabilities. The 10 States
selected for 1998 are: Region I - Vermont, Region II - New Jersey, Region III - Maryland, Region
IV - Tennessee, Region V - Indiana, Region VI - New Mexico, Region VII - Iowa, Region VIII -
Utah, Region IX - California, and Region X - Oregon. The Map to Inclusive Child Care staff will
assist teams from each of these States to conduct a strategic planning process through which
priorities and work plans will be developed to address the needs of each State.

The contractor for this project is the University of Connecticut Health Center, in partnership with
the National Conference of State Legislators, the National Child Care Association, the Federation
of Children with Special Needs, the National School Age Care Alliance, and Zero to Three. The
Project Director is Mary Beth Bruder, Ph.D., (860-679-4632, e-mail:Bruder@NSO1.UCHC.EDU).

Child Care Information System Project (CCIS)

The Child Care Information System Project (CCIS) provides technical assistance to meet the Child
Care and Development Fund reporting requirements. The CCIS project supports a national child
care automation conference, a State and Territory technical workshop, model documentation for
systems design, an Internet “web” homepage, and a child care automation resource center. The
CCIS project will be assisted by a Functional Requirements Organizing Group made up of 10
States. The contractor for this project is SRA International, Inc. with a subcontract to Ellsworth
Associates, Inc. For information contact David Baker, Project Director, Child Care Automation
Resource Center (888-821-6997, e-mail: ccarc@eaint.com). The World Wide Web address for the
CCIS project is: http://www.acf.dhhs.gov/programs/ccb/systems/index.htm.




                                          )))))))))))
                                              A-3
APPENDIX B



Agency Comments





  )))))))))))
      B - 1

)))))))))))
    B - 2

)))))))))))
    B - 3

)))))))))))
    B - 4

)))))))))))
    B - 5

)))))))))))
    B - 6

